Case: 20-20320

Document: 00515701531

Page: 1

Date Filed: 01/11/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

January 11, 2021

No. 20-20320
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Jose Noe Castro Orellana,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:20-CR-107-1
Before Jolly, Elrod, and Graves, Circuit Judges.
Per Curiam:*
Jose Noe Castro Orellana pleaded guilty to violating 8 U.S.C.
§ 1326(a), illegal reentry by a previously deported alien, and was sentenced
to 24 months in prison, the statutory maximum sentence. Orellana argues
that his sentence is unreasonable, both procedurally and substantively.

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

21

APPENDIX

Case: 20-20320

Document: 00515701531

Page: 2

Date Filed: 01/11/2021

No. 20-20320

We review sentences for reasonableness, first determining whether
the district court committed a procedural error, such as “selecting a sentence
based on clearly erroneous facts.” Gall v. United States, 552 U.S. 38, 51
(2007). Orellana contends that the district court selected his sentence based
on its erroneous belief that he should have been charged with violating
§ 1326(b)(1), which would have subjected him to a 10-year statutory
maximum sentence, rather than § 1326(a) and its two-year statutory
maximum sentence. Because Orellana failed to present this argument in the
district court, our review is for plain error. Orellana must show a forfeited
error that is “clear or obvious” and that has “affected [his] substantial
rights” by “affect[ing] the outcome of the district court proceedings.”
Puckett v. United States, 556 U.S. 129, 135 (2009) (internal quotation marks
and citation omitted). If he makes this showing, we have the discretion to
remedy the error but should do so “only if the error seriously affects the
fairness, integrity or public reputation of judicial proceedings.” Id. (internal
punctuation, quotation marks, and citation omitted).
Orellana has failed to show that the district court committed a clear or
obvious error by relying on clearly erroneous facts to select the sentence. See
Gall, 552 U.S. at 51. Even if the district court committed an error that was
clear or obvious, Orellana has failed to show that the error affected his
substantial rights because he has not shown a reasonable probability that,
absent any reliance on its belief that Orellana should have been charged under
§ 1326(b)(1), the court would have imposed a lesser sentence. See Puckett,
566 U.S. at 135; United States v. Mondragon-Santiago, 564 F.3d 357, 364-65
(5th Cir. 2009). The 24-month sentence became the guidelines sentence
because it was the statutory maximum sentence and was below the guidelines
range of 30 to 37 months that would have otherwise applied and which had
been correctly calculated.

2

22

Case: 20-20320

Document: 00515701531

Page: 3

Date Filed: 01/11/2021

No. 20-20320

Because the district court did not commit a procedural error, we now
consider whether the 24-month sentence was substantively reasonable. By
requesting a sentence of one year and one day, Orellana preserved his
substantive reasonableness challenge, see Holguin-Hernandez v. United States,
140 S. Ct. 762, 764, 766-67 (2020), and we review for abuse of discretion. See
United States v. Sifuentes, 945 F.3d 865, 868 (5th Cir. 2019), cert. denied, 140
S. Ct. 2697 (2020). Orellana argues that the district court imposed a
substantively unreasonable sentence because it relied too heavily on an
erroneous belief that he could have been charged under § 1326(b)(1), but he
has failed to overcome the presumption of reasonableness that applies to his
within-guidelines sentence, which was based, at least implicitly, on several 18
U.S.C. § 3553(a) factors. See United States v. Alvarado, 691 F.3d 592, 597 (5th
Cir. 2012); see also Gall, 552 U.S. at 51.
The judgment of the district court is AFFIRMED.

3

23

